THIS PAGE INTENTIONALLY LEFT BLANK
PBGC Office of inspector general
Semiannual Report Of The Inspector General—March 2011
PBGC Office of inspector general
                              Pension Benefit Guaranty Corporation
                                                               Office of Inspector General
                                                 1200 K Street, NW, Washington, DC 20005-4026


									                                                                            	
The Board of Directors
Pension Benefit Guaranty Corporation

During the 6 month period covered by this report (October 1, 2010 through March 31, 2011), the PBGC
Office of Inspector General issued ten audit and evaluation reports with 43 recommendations for
improvement. We completed four investigations, resolved 51 complaints, and continued investigative
work on three cases that were accepted for prosecution by U.S. Attorneys’ Offices during prior
semiannual periods.

Much of the work done during this semiannual period was in response to Congressional requests. We
issued two evaluation reports and a letter report, and the Inspector General testified before the Senate
Health, Education, Labor and Pensions Committee.

  •	 PBGC’s National Steel Plan Asset Audit. We found that the audits performed by a contractor to
     determine the fair market value of the National Steel pension plans assets at the time the plans
     were terminated had serious errors and omissions, and that PBGC did not properly oversee the
     contractor. This work was requested by Senators Klobuchar and Franken, and former Congressman
     Oberstar.
  •	 PBGC’s Strategic Preparations for Potential Workload Influx. Our evaluation found that PBGC
     performed minimal planning for a potential workload influx. We also noted that PBGC’s plan
     did not recognize the significant role of contract staff to address a potential influx nor had
     they coordinated with the procurement department to test the feasibility of their plans. We
     recommended that PBGC adopt a strategic focus and develop tactics to be prepared for the future.
     This work was requested by Senator Herb Kohl, Chair of the Senate Special Committee on Aging.
    • Inspector General Testimony. I testified before the Senate Health, Education, Labor and Pensions
      Committee, that PBGC had made progress in some areas such as improving the privacy program
      and strengthening its securities lending program. However, there was still much to be done to
      address information technology deficiencies and ensure that contractors deliver what PBGC is
      paying for.
We also conducted work and issued reports that are mandated by statute:
  •	 FY 2010 Financial Statements Audit Reports. We issued four reports in connection with our audit
     of PBGC’s annual financial statements, including (1) a report presenting the 18th consecutive
     unqualified opinion on PBGC’s general-purpose financial statements, as well as an adverse opinion
     on PBGC’s system of internal control; (2) a detailed internal control report discussing PBGC’s
     material weakness comprising three significant deficiencies; (3) a report presenting an unqualified
     opinion on PBGC’s special-purpose financial statements that are consolidated into the Financial
     Report of the U.S. Government; and (4) a management letter report identifying less significant
     matters related to PBGC internal controls and operations.
  •	 FY 2010 Federal Information Security Management Act (FISMA). We issued two FISMA reports: the
     Independent Evaluation Report required by OMB describing the overall results of our independent
     evaluation of PBGC’s information security programs and practices and a more detailed report
     providing additional information on the results of our review of the PBGC information security
     program.
During this semiannual period, information technology (IT) was a significant focus of our efforts.
  •	 We met frequently to understand PBGC’s progress in its corrective action plans to address the
     significant deficiencies reported in prior OIG audits.
  •	 We issued the FY 2010 Vulnerability Assessment, Penetration Testing, and Social Engineering
     Report, a restricted disclosure report that detailed the results of our testing of the PBGC
     information security infrastructure.


We have three active investigations that we are working toward prosecution with several U.S.
Attorneys’ offices. In addition, we combatted pension fraud through investigations, education, and
assistance to PBGC in identifying potential identity theft issues.

We also issued a new five-year Strategic Plan for 2011-2016 which establishes goals for performance,
stakeholder communication and workforce recruitment and development.

Sincerely,




Rebecca Anne Batts
Inspector General
Table of Contents
Letter to the Board of Directors

Executive Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
	     The Pension Benefit Guaranty Corporation
	     The Office of Inspector General

Management Challenges
PBGC and the Need for Strategic Focus . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
	     PBGC’s Plan Asset Audit of National Steel Pension Was Seriously Flawed
	     OIG Communicates with Congress and Steelworkers
	     Inspector General Testifies Before PBGC Senate Oversight Committee
	     Evaluation of PBGC’s Strategic Preparations for a Potential Workload Influx
	
PBGC’s Information Technology Poses Significant Risk . . . . . . . . . . . . . . . . . . . . 16
	     FY2010 Federal Information Security Management Act (FISMA) Submission
	       to the Office of Management and Budget
	     FY2010 Vulnerability Assessment, Penetration Testing, and Social Engineering
	       Report
	     FY2010 FISMA Independent Evaluation Report

Financial Statement Audit: Unqualified Opinion on Financial
Statements and an Adverse Opinion on Internal Controls  . . . . . . . . . . . . . . . . 18
	     Audit of the Pension Benefit Guaranty Corporation’s Fiscal Year 2010 and 2009
          Financial Statements
	     Report on Internal Control Related to the Pension Benefit Guaranty
          Corporation’s Fiscal Year 2010 and 2009 Financial Statements Audit
	     Audit of the Pension Benefit Guaranty Corporation’s Fiscal Year 2010 and 2009
          Special-Purpose Financial Statements
	     Fiscal Year 2010 Financial Statements Audit Management Letter

Senator Brown’s Constituents Raise Issues on Pension Plans . . . . . . . . . . . . . . 23
	     Letter to Senator Sherrod Brown Regarding Republic Technologies Inc.

Investigators Engaged in Multiple Approaches to Address
Pension Fraud  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

Investigations of Alleged Wrongdoing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  .25
	
Open Audit Recommendations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .26
	




                                               Semiannual Report Of The Inspector General—March 2011                                       iii
Other OIG Reporting. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29
	 Access to Information
	Management Decisions

Audit Peer Review Results. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29

Other Office of Inspector General Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31
	      Review of Proposed Statutory and Regulatory Changes
	      New Strategic Plan
	      Audit Peer Review of CPB
	      Enhanced Independence by Contracting for HR Services
	      External and Internal Professional Activities


Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35
	Cross-Reference to Reporting Requirements of the Inspector General Act
	 Summary of Audit and Investigative Activities
	 Results of Reports Issued
	 Summary of Reports Older Than Six Months for Which Management
     Decision Has Not Been Achieved
	 Previously Reported Significant Recommendations for Which Corrective
     Action Has Not Been Completed

5-Year Strategic Plan for Calendar Years 2011-2016
	




              IV                            PBGC Office of inspector general
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments
of the Pension Benefit Guaranty Corporation Office of Inspector General for the
period October 1, 2010 through March 31, 2011. During this reporting period, our
work spanned PBGC and demonstrated the need for PBGC to take more assertive
action to address risk strategically:

 •	 Our evaluation of PBGC’s plan asset audit of the National Steel pension plans
    found that the work was seriously flawed. As a result, neither PBGC nor plan
    participants had assurance that benefits had been correctly computed and paid
    (see pages 5-9).
 •	 The Inspector General testified before the Senate Committee on Health,
    Education, Labor and Pensions, reporting mixed results on whether stronger
    management and oversight was needed (see pages 10-12).
 •	 Our evaluation of PBGC’s strategic preparedness for a potential workload influx
    concluded that, as a result of not completing a comprehensive readiness exercise,
    PBGC does not have a well thought out strategy for addressing workload surges
    with a variety of workable tactics. Instead the Corporation is relying on its ability
    to develop and implement an ad hoc approach (see pages 12-15).
 •	 Our information technology audit work included two FISMA reports and a report
    on vulnerability assessment, penetration testing and social engineering which
    found a significant number of critical and high vulnerabilities (see pages 16-18).
 •	 We issued the 18th consecutive unqualified opinion on PBGC’s general purpose
    financial statements. For a second year, we reported an adverse opinion on
    internal control based on three significant deficiencies that, taken together,
    comprise a material weakness (see pages 18-23).
 •	 We issued a report on internal control that detailed the underlying material
    weakness: entity-wide security program planning and management; access
    controls and configuration management; and integrated financial management
    systems (see pages 20-22).
 •	 In response to a request from Senator Brown of Ohio, we conducted limited
    scope inquiries on various issues related to PBGC’s actions with respect to the
    terminated pension plans of Republic Technologies International (see page 23).
 •	 We continue to address pension fraud and identify theft through investigations,
    proactive training, and outreach (see pages 24-26).
 •	 We issued a new five-year Strategic Plan that outlines our goals related to
    performance, our stakeholders, and workforce (attached at the end of this
    semiannual report).




                              Semiannual Report Of The Inspector General—March 2011
                         THIS PAGE INTENTIONALLY LEFT BLANK




PBGC Office of inspector general
Introduction
The Pension Benefit Guaranty Corporation
The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA),
as amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly-owned Federal
Government corporation to administer the pension insurance program. ERISA requires
that PBGC: (1) encourage the continuation and maintenance of voluntary private
pension plans, (2) provide for the timely and uninterrupted payment of pension                     PBGC Board
benefits to participants and beneficiaries, and (3) maintain premiums at the lowest
                                                                                                   Responded
level consistent with carrying out PBGC’s obligations.
                                                                                                 Promptly to Our
For about 44 million Americans, PBGC provides assurance that their retirement
                                                                                                 Interim Report
benefits will be paid, up to a statutory limit. PBGC protects the pensions of participants
in certain defined benefit pension plans (i.e., plans that promise to pay definite,
determinable retirement benefits). Such defined benefit pension plans may be
sponsored individually or jointly by employers and unions. PBGC is now responsible
for the pensions of about 1.3 million people.                                                  PBGC paid almost

                                                                                             $5.6 billion for about
As of the end of FY 2010, PBGC had an investment performance portfolio of about $67
billion and had paid almost $5.6 billion for about 801,000 retirees and beneficiaries.       801,000 retirees’ and
The Corporation reports having sufficient liquidity to meet its obligations for a number     beneficiaries’ benefits.
of years, despite a cumulative deficit of $21.6 billion from the single-employer and
multiemployer programs. Neither program at present has the resources to satisfy all
of the benefit obligations already incurred, much less future obligations likely to be
assumed.

PBGC’s governance structure comprises the Board of Directors, their Board
Representatives, a Presidentially-appointed Director, and Congressional oversight.
Other elements of governance include PBGC’s system of internal control, its clearly
articulated authority to act, and the policies and procedures under which PBGC
operates. PBGC governance is complex and requires those who are charged with its
oversight to view the Corporation from a number of differing perspectives. Oversight
by the PBGC Board, PBGC management and the OIG is critical to effective corporate
governance.

The Office of Inspector General
The PBGC Office of Inspector General (OIG) was created under the 1988 amendments
to the Inspector General Act of 1978. We provide an independent and objective
voice that helps the Congress, the Board of Directors, and PBGC protect the pension
benefits of American workers. Like all Offices of Inspector General, the PBGC OIG is
charged with providing leadership and recommending policies and activities designed
to prevent and detect fraud, waste, abuse, and mismanagement; conducting and
supervising independent audits and investigations; and recommending policies to
promote sound economy, efficiency, and effectiveness.

                                  Semiannual Report Of The Inspector General—March 2011
      PBGC Board
                          To provide value, we focus our work on the challenges facing PBGC. We strive to target
      Responded           the highest risk areas and emphasize timely reporting of results. We determine what we
                          will investigate and audit and how we will conduct those investigations and audits. We
    Promptly to Our
                          determine our own priorities and have our own independent legal counsel. Our audit
     Interim Report       and investigative staff is competent and experienced, with professional backgrounds in
                          other Offices of Inspector General, independent accounting firms, and federal criminal
                          investigative agencies. We independently respond to Congressional requests and initiate
                          contact with Congress, as warranted.

    OIG audit and         The PBGC OIG is in full compliance with the Quality Standards for Federal Offices of
                          Inspector General, published by the President’s Council on Integrity and Efficiency (PCIE)
  investigative work
                          and the Executive Council on Integrity and Efficiency (ECIE). Our audit work is performed
addresses areas of high   in compliance with Generally Accepted Government Auditing Standards, issued by the
                          Comptroller General of the United States, and our investigations are performed in
         risk.
                          compliance with PCIE and ECIE Quality Standards for Investigations.

                          The PBGC OIG is organizationally independent. The Inspector General reports directly
                          to the highest level of PBGC governance, the PBGC Board, and to Congress. In executing
                          our independent oversight role, we perform a range of legally-mandated work (e.g.,
                          the annual financial statement audit and the annual Federal Information Security
                          Management Act review), as well as a body of discretionary work.




                          PBGC Office of inspector general
Management Challenges
PBGC and the Need For a Strategic Focus
This Semiannual Report to Congress includes the results achieved by the PBGC Office
of Inspector General between October 1, 2010 and March 31, 2011. Prior audit and
investigative work, reported in previous semiannual reports, showed that PBGC has
not approached aspects of its operations in a strategic way. Management sometimes
missed, or ignored, the risks identified in OIG and Government Accountability Office
(GAO) audit findings, choosing instead to focus more narrowly on correcting individual
issues. This has been particularly true with regard to the procurement of goods
and services and for information technology (IT). Much of the work described in
this semiannual report results from PBGC’s slow pace in addressing risks previously
identified or from the need for PBGC to take more assertive action to address risk            PBGC Board
strategically.
                                                                                              Responded
This semiannual report also contains the Five Year Strategic Plan for the Office            Promptly to Our
of Inspector General. In developing this plan, OIG established specific goals and
performance measures consistent with the spirit of the Government Performance and           Interim Report
Results Act .

PBGC OIG continues to respond to the numerous and varied issues of concern that
confront the American pension system and its participants, including IT security,
investment valuation and management, and benefit payment calculation and                  PBGC should address
administration. OIG has also initiated a program of fraud awareness and outreach for      risk more strategically.
stakeholders and participants and conducted targeted work in response to myriad
Congressional requests and Hotline complaints. PBGC faces a number of challenges,
ranging from planning for the possible surge in pension plan terminations to
responding to new legislation.

During this semiannual period, OIG issued ten audit and evaluation reports
containing 43 recommendations for corrective action. In investigations, we received
55 complaints and closed 51; we opened six new investigations and closed four.
Highlights of the issued reports and closed investigations follow.

PBGC’s Plan Asset Audit of National Steel Pension Plans Was Seriously Flawed
EVAL 2011-10/PA-09-66-1
(http://oig.pbgc.gov/audit/2011/pdf/PA-09-66-1.pdf )

In response to a request from U.S. Senators Amy Klobuchar and Al Franken and former
U.S. Congressman James Oberstar, we examined PBGC’s actions after it terminated
certain Minnesota steelworker pension plans. Our review disclosed serious errors and
omissions in PBGC’s plan asset audit conducted to determine the fair market value of
the assets of the National Steel Corporation’s family of seven terminated pension plans
with approximately 35,000 participants.




                                  Semiannual Report Of The Inspector General—March 2011
                        Table 1: National Steel Corporation pension plans trusteed by PBGC

                        1 Data from PBGC’s Case Management System, the computerized system for
                        tracking events and inquiries affecting pension plans.
                        2 Data from Plan Asset Audit prepared by Integrated Management Resources Group Inc, dated July 14,
                        2003.
                        3 This plan was mislabeled as “Great Lakes Hourly Pension Plan” in the plan asset audit report.
                        4 The total asset values were incorrectly switched for the National Steel Pellet salaried and hourly pension
                        plans in PBGC’s plan asset audit. For purposes of this chart, we corrected the error.


                        Plan asset audits are intended to establish the fair market value of pension plan assets
                        as of the date of plan termination; this value is important because it can affect the level
Neither PBGC nor its    of benefits to be paid to retirees. For National Steel, a single plan asset audit report
                        was accepted by PBGC in 2004 to establish the asset allocations for seven different
contractor exercised    pension plans. However, PBGC’s plan asset audit for the National Steel plans failed
                        to meet applicable professional standards. This occurred because both PBGC and its
due professional care
                        contractor failed to exercise due professional care in the conduct of the audit. Further,
 in conducting the      PBGC did not provide effective oversight for the contractor and accepted and paid
                        for sub-standard and obviously flawed audit work. As a result, neither PBGC nor the
  plan asset audit.
                        plan beneficiaries has reasonable assurance that all plan assets have been identified,
                        correctly valued, and properly allocated to the individual National Steel pension plans.

                        The value of a plan’s assets is important because it is used in calculating retirement
                        benefits. For some plans, increases in the calculated value of plan assets at the date of
                        plan termination result in increased benefits for plan participants. However, for other
                        plans – especially plans such as National Steel, in which plan funding falls far short of
                        the calculated guaranteed benefit amount – even relatively large increases in the value
                        of plan assets may not translate into additional benefits for retirees. Our report strongly
                        cautioned the National Steel pension plan participants not to assume that the errors and
                        omissions we identified would result in benefit increases.




                        PBGC Office of inspector general
PBGC’s Plan Asset Audit of National Steel was Replete with Obvious Errors and
Omissions

Many errors in the plan asset audit were obvious and would have been identified if
PBGC had subjected the report to even a cursory oversight review. For example, the
audit report showed net assets were $1,436,523,271.58.  Three lines later, on the same
page, the report’s conclusion section showed a different amount, reporting net plan
assets of $1,438,375.127.95.  Further, the supporting work paper shows yet a third           PBGC’s ineffective
number -- $1,400,302,878.58 -- as net assets.  The $38 million difference between
net assets as documented in the audit work paper and as reported in the conclusion           oversight allowed
section of the report is material. Neither the report nor the work papers explained the     obvious errors and
reasons for the differences in this key number.
                                                                                             omissions in the
Some errors in the plan asset audit report could have been identified by comparing          contractor’s work to
what was reported with supporting or corroborating evidence. For example, the audit
report states, “There were no insurance contracts in the plan.” However, our review of        go uncorrected.
the Forms 5500 submitted by National Steel showed that the plans held four insurance
contracts valued at over $56 million. The audit report also states, “No annuities were
purchased for participants under the plan.” Nevertheless, our review of the Forms 5500
showed that at least three annuity contracts were purchased for 229 beneficiaries in
the plans.

PBGC’s Plan Asset Audit Did Not Comply with Government Auditing Standards

PBGC’s contract with Integrated Management Resources Group, Inc. (IMRG) required
that “work products are consistent with Government Auditing Standards … ,” and
the National Steel plan asset audit report claimed the audit was conducted in
accordance with Generally Accepted Government Auditing Standards. Government
Auditing Standards, established by the Comptroller General of the United States,
are the professional standards for government auditing that provide a framework
for performing high-quality audit work with competence, integrity, objectivity, and
independence. However, we determined the plan asset audit suffered from multiple
and serious deviations from Government Auditing Standards.

Based on our work, we concluded that PBGC leadership did not have a strong
commitment to ensuring that audit work was completed in accordance with
Government Auditing Standards. Instead, as noted by the Benefits Administration and
Payment Department (BAPD) Director, assertions about compliance with Government
Auditing Standards were considered to be boilerplate and not necessarily relevant to
the conduct of the plan asset audits. As the Inspector General noted in her December
1, 2010 testimony before the Senate Committee on Health, Education, Labor and
Pensions, “allowing a contractor to provide a deliverable of a lesser quality than called
for in a contract constitutes a form of waste or abuse, if not outright fraud.” PBGC
allowed IMRG to provide a plan asset audit report for seven National Steel pension
plans that fell far short of meeting the quality standards included in the contract.
While PBGC has committed to performing a re-evaluation of the value of plan assets,
the passage of time and the difficulty of re-creating records may make such an effort
difficult or impossible.

                                  Semiannual Report Of The Inspector General—March 2011
                          PBGC’s Oversight of the Contractor was Inadequate

                          PBGC’s oversight of the contract auditors was ineffective in identifying obvious and
                          material errors and omissions in the work IMRG performed on the National Steel plan
                          asset audit. Although there was no documentation that PBGC personnel reviewed any
                          of IMRG’s work, both the PBGC manager and the PBGC auditor assigned to manage
                          and provide oversight for the National Steel audit signed the contractor’s plan asset
                          audit report concurring with the results, supporting work papers, and attachments.
                          Neither the PBGC manager nor the auditor commented on the inadequacies of the
                          contract auditors’ work or on the extensive noncompliance with Government Auditing
                          Standards.

                          PBGC placed tremendous reliance on its contractor and is now experiencing serious
                          and costly problems with the quality and utility of the contract deliverables for which
                          it paid. Many of these issues could have been avoided through effective contract
                          management, including careful contract monitoring, acceptance of deliverables
                          and evaluation of contractor performance. More than five years ago, the Office
PBGC is taking action     of Inspector General issued audits reporting concerns that the contractor had not
to address incorrect      demonstrated that its employees possessed contractually required education, skills
                          and experience and that PBGC was not providing proper oversight to the contractor.
 National Steel plan      If the Corporation had responded effectively to information provided in prior audit
    asset audits.         reports, PBGC could have addressed this serious concern years ago.

                          Contractor Auditor Allocated Assets Among the Individual Plans Without Validating
                          the Allocation Percentages

                          The contract auditor distributed assets of the master trust to each of the seven
                          individual plans using a set of allocation percentages provided by the trustee. These
                          percentages were vital to determining the accuracy of the funding status of the
                          individual plans. Nevertheless, neither PBGC nor its contract auditor did any work
                          to ensure that the allocation percentages were reliable or to validate the source and
                          use of the percentages. Because the allocation percentages are so important to the
                          calculated value of plan assets at the date of plan termination, any audit done in
                          accordance with Government Auditing Standards, would necessarily include tests
                          of the validity of the allocation percentages. In response to OIG’s audit report, PBGC
                          hired a Certified Public Accounting (CPA) firm to re-perform the plan asset audit for the
                          National Steel master trust.

                          PBGC Agrees to Take Corrective Actions

                          During the course of the evaluation, we advised PBGC leadership of the serious issues
                          included in this report. To its credit, PBGC committed to taking actions to re-evaluate
                          National Steel’s plan assets and to improve the effectiveness of its plan asset valuation
                          process. PBGC’s decision to contract with a CPA firm to re-evaluate the value of plan
                          assets is a positive one. Our recommendations were intended to support that decision
                          and help ensure the effectiveness of PBGC’s ongoing effort to calculate a more reliable
                          valuation for plan assets. However, given that the original report was accepted by



                        PBGC Office of inspector general
PBGC in 2004, it is important to note that the work that PBGC is currently doing will
not provide the same level of assurance that a properly performed audit, conducted in
accordance with Government Auditing Standards, would have provided. The passage
of time will prevent PBGC and its new contract auditor from being able to complete
many of the audit tests related to the detection of fraud, waste, or abuse. Further, in
some instances, outside parties may not have maintained the corroborating records
that could be used to assist in the valuation of plan assets. For example, we contacted
the firm providing annuities to some of the plan beneficiaries; representatives of the
firm advised that nearly all of the relevant records had been destroyed.

In our report, we made a number of recommendations aimed at reducing the
likelihood that future audit products prepared by PBGC or by its contract auditors will
suffer from the errors and omissions identified in our report. In its written response
to the official draft report, PBGC agreed with our findings and recommendations and
the PBGC Director asserted, “We have resolved to set things right....If anyone’s benefits
were wrongly reduced, their benefits will be corrected and they will be repaid with
interest – and an apology.”

OIG Communicates with Congress and Steelworkers
About Plan Asset Audit Issues
(http://oig.pbgc.gov/MIN_OIG_VID.html)

Since our work addressing PBGC processing issues with the National Steel pension
plans was done at the request of Senators Amy Klobuchar and Al Franken and former
Congressman James Oberstar, Inspector General Rebecca Anne (Becky) Batts and other
OIG leaders held periodic briefings with the Congressional staffs to keep the legislators
informed of our findings. When newly elected Congressman Chip Cravaack took office,
we also met with him and his staff to discuss our work related to his constituents in the
“Iron Range” of Minnesota.

At the request of Senators Klobuchar and Franken, Inspector General Batts and Deputy
Inspector General Deborah Stover-Springer traveled to Minnesota in early April, after
the close of this semiannual period but before the issuance of this written report. We
met with Congressional staff and certain participants in the various National Steel
pension plans in Duluth, MN near the Iron Range. At this meeting, the Inspector             Inspector General
General explained our report’s findings and the positive impact that resulted when          communicated with
the steelworkers raised concerns about their pension plans and benefits to their
Congressional representatives. Inspector General Batts told them that they were              plan participants
“owed an accurate accounting” of their plan’s assets from PBGC but also cautioned           via video regarding
that, even with the serious errors and omissions we found, PBGC’s re-evaluation of
their plan asset audit might not result in them receiving additional benefits, given         plan asset audit
that PBGC records showed their plans to be so significantly underfunded. However,                findings.
she noted that their persistent voice had resulted in PBGC’s promise to change the
way that PBGC plan asset audits would be performed in the future and in other
commitments from PBGC that would have a positive impact on future PBGC pension
plan participants.




                                   Semiannual Report Of The Inspector General—March 2011
                       Because only a small number of the almost 35,000 participants in the National Steel
                       pension plans could meet with us, at the request of Senators Franken and Klobuchar,
                       the Inspector General and Deputy Inspector General prepared a video briefing of our
                       work that can be viewed over the internet.

                       Inspector General Testifies Before PBGC Senate Oversight Committee
                       “PBGC: Is Stronger Management and Oversight Needed?
                       (http://oig.pbgc.gov/reports/testimony/testimony12110%20final.pdf)

                       The Senate Committee on Health, Education, Labor and Pensions invited Inspector
                       General Batts to testify about PBGC’s management and oversight of its single and
                       multiemployer pension insurance programs. Ms. Batts stated that her testimony
 PBGC’s General
                       was “essentially good news.” She highlighted PBGC’s recent accomplishments in
  Counsel took         responding to OIG recommendations, noting:

effective action in
                         •	 PBGC had taken action to protect sensitive and personally identifiable information.
 response to OIG            (PII). PBGC’s mission requires the collection, storage and transmittal of a great
                            deal of PII, such as the names, social security numbers, and earnings histories of
recommendations.            workers in pension plans that PBGC terminates and trustees. In March 2010, OIG
                            reported that the Privacy Office did not properly monitor its privacy processes
                            for quality and compliance, and the process for reporting PII breach events was
                            inaccurate and unverifiable. Upon OIG’s reporting of concerns with PBGC’s privacy
                            program, PBGC’s Office of the General Counsel took swift steps to not only address
                            the findings and recommendations but also initiated a complete reexamination
                            of its privacy program with the stated intention of making PBGC a model for
                            handling sensitive information. Among its actions, the Privacy Office developed
                            and implemented key guidance about reporting PII breaches, including detailed
                            recordkeeping instructions, and disseminated the guidance widely to PBGC
                            employees and contractors. They followed this up with in-person training to those
                            who frequently handle sensitive information. OIG’s testing of PBGC’s corrective
                            actions showed that the recommendations had been effectively implemented,
                            increasing the likelihood that PBGC will be able to better protect PII and other
                            sensitive data with which it has been entrusted.


                         •	 PBGC initiated actions to protect its securities on loan to other investors.  PBGC
                            has a large portfolio of investments, of which $21 billion was in investable
                            securities as of September 30, 2010. OIG’s review of PBGC’s Securities Lending
                            program disclosed the general absence of written guidance at all levels and
                            little documentation of the procedures used to implement, monitor and oversee
                            the program. Further, OIG had previously reported that PBGC was unable to
                            independently validate that the gross and net revenues earned through the
                            lending program were correctly calculated by the bank that had custody of PBGC’s
                            loaned assets. PBGC is making progress in implementing the 16 recommendations
                            in our report. For example, PBGC has developed and is testing a method to
                            validate the amount of revenue earned through securities lending – an important
                            step to ensure PBGC receives the full amount of earnings to which it is entitled.



                      PBGC Office of inspector general
   Further, PBGC is in the process of implementing internal controls to provide
   effective oversight and monitoring of the securities lending program, including
   drafting written policies and implementing guidance regarding the establishment,
   investment objectives, risk tolerance, and measurement standards and operation
   of the program.


The Inspector General also reported on a number of serious long-standing weaknesses
that PBGC is still working to address. These weaknesses have impact across the
Corporation, creating risk that PBGC cannot effectively accomplish its mission.

 •	 Significant information technology risks.  Much of OIG’s recent audit work has
    focused on serious weaknesses in PBGC’s IT practices that pose increasing and
    substantial risks to PBGC’s ability to carry out its mission. For FYs 2009 and 2010,
    PBGC’s annual financial statements audits included adverse opinions on internal
    control based, in part, on systemic IT security control weaknesses. OIG’s report       Information technology
    on PBGC’s compliance with the Federal Information Security Management Act
                                                                                           and contractor oversight
    described PBGC’s information systems as “a series of stovepipe solutions built upon
    unplanned and poorly integrated heterogeneous technologies with varying levels          remain high risk areas
    of obsolescence.” Though the Corporation had, in the past, often dismissed OIG’s
                                                                                                  for PBGC.
    IT concerns reported both in audits and investigations, PBGC is now on a different
    course of action. PBGC appointed new IT leadership and embarked on a coherent
    approach to resolving and correcting fundamental IT weaknesses. Among their
    actions, PBGC has developed and is implementing multi-year corrective action
    plans to address security issues at the root cause level. PBGC also entered into
    an inter-agency agreement with the Bureau of Public Debt (BPD) to leverage its
    expertise in security control. While these are important first steps, PBGC’s planned
    corrective actions will not be complete until at least 2015. The Corporation faces
    many challenges – including the continuous stream of new and ever-changing
    Federal IT requirements – as it works to ensure the security of its IT systems.


 •	 Integrity of the contracting process.  PBGC relies heavily on the services of
    contractors to carry out its mission:  about 2/3 of its annual operating budget
    is spent through contracts and about two of every three people who do its
    work are contractors. Thus, ensuring that contractors provide the goods and
    services for which they are paid is critical to PBGC’s ability to meet its mission.
    Many of the long-standing open audit recommendations relate to PBGC’s
    contracting practices; critical issues OIG is currently addressing have been caused
    or exacerbated by poor contract management. These issues could have been
    avoided through effective contract management, including careful contract
    monitoring, appropriate acceptance or rejection of deliverables based on quality,
    and evaluation of contractor performance. PBGC senior leaders need to reinforce
    the idea that allowing a contractor to provide a deliverable of lesser quality than
    required by the contract constitutes a form of waste or abuse, and could even be
    fraud.




                                 Semiannual Report Of The Inspector General—March 2011
                           Inspector General Batts highlighted ongoing work that addresses these contracting
                           issues, including the poor quality of the National Steel plan asset audit conducted
                           by a contractor and not properly overseen by PBGC (reported above, page 1). She
                           also reported on our recently issued audit report addressing Congressional concerns
                           about PBGC’s readiness to address a potential workload surge from terminated
                           pension plans (reported immediately below, page 12). Ms. Batts concluded that these
   PBGC needs to           IT and procurement weaknesses have organization-wide impact; thus PBGC should
                           target its oversight and management efforts on effective execution of corrective
strategically prepare      action plans and, for those corrective action plans that are long-range in nature,
for potential workload     interim measures should be developed and implemented to minimize risk.

       influx.             Evaluation of PBGC’s Strategic Preparations for a Potential Workload Influx
                           EVAL-2011-1 /PA-09-65
                           (http://oig.pbgc.gov/audit/2011/pdf/PA-09-65.pdf )

                           In response to a request from Senator Herbert Kohl, the Chairman of the U.S. Senate
                           Special Committee on Aging, we initiated an evaluation of whether PBGC was taking
                           steps to strategically prepare the Corporation for a possible influx of pension plans
                           and their participants in light of reports of financial distress in certain companies that
                           sponsor large defined benefit plans.




                           Though a “tsunami-like” surge of terminated pension plans and participants did not
                           occur, as some had anticipated, in 2009 PBGC did become responsible for paying the
                           benefits of more than 201,000 participants – the third largest intake in PBGC’s history.
                           We concluded that PBGC should more strategically address risk by arming itself with
                           a well thought-out strategy for addressing surges in workload volume, as well as a
                           variety of workable tactics that could be used under a variety of situations. Unless
                           the Corporation completes readiness exercises and develops necessary tactics, PBGC
                           leadership will not know whether the agency is ready to meet the challenge of a
                           major influx.

                           Although the Corporation did perform some minimal planning for a potential influx,
                           its activities were generally simplistic and linear. Management issued a “data call”
                           to all departments at the same time and then compiled the resulting data, without


                         PBGC Office of inspector general
performing substantive analysis. We observed that PBGC executive leadership
discounted the value of comprehensive planning activities, in part, due to the belief
that a playbook approach, explicitly detailing the steps to be taken, was impractical.
PBGC believed that a workload surge could take many varied and unpredictable forms
and that the only practical option was reliance on the Corporation’s ability to develop
and implement an “ad hoc” approach, in the event that a workload surge materialized.
Based on our review, we identified a number of specific activities that the Corporation
could take to enhance its readiness in the event of a workload surge, such as:

 •	 PBGC’s plans should reflect the interdependencies between organizational
    units. PBGC developed its plan to address a potential workload surge without
    considering how decisions and actions to be taken by PBGC’s core business
    functions (e.g., Department of Insurance Supervision and Compliance and
    Benefit Administration and Payment Department) would affect or be affected
    by the decisions and actions of PBGC’s support functions (e.g., information
    technology, facilities, human resources, and procurement). PBGC developed
    estimates of resource needs based on changes in the number of participants – a
    linear approach – but did not refine the results by considering potential changes
    in tactics that might occur in the event of a workload surge. The resulting
    disconnect between the actions of core and support functions reduced the
    usefulness of PBGC’s resource planning.

 •	 PBGC’s plans should be based on consistent, documented methodologies.  The
    data call did not include specific instructions regarding how to develop estimates.
    During our evaluation of the data call submissions, we identified inconsistent
    methodologies in calculating estimated resources. Further, not all departments            PBGC’s limited
    maintained records of their methodology and basis for resource requests – a
                                                                                             workload influx
    limitation that prevented effective analysis of the data.
                                                                                             planning did not
 •	 PBGC’s plans for a workload surge should support the Corporation’s overall
                                                                                           recognize significant
    strategic planning process. We concluded that PBGC took a “point in time”
    approach to planning for a potential influx of participants. As the former Chief       role of contract staff.
    Administrative Officer stated, “it was a mini-budgeting exercise.” We concluded
    that PBGC did not experience long-term benefits from the planning exercise,
    due – at least in part – to the lack of a strategic focus. PBGC missed several
    opportunities to build on the “point in time” planning exercise. For example, a
    more strategic planning process (in lieu of the “point in time” approach) might
    have resulted in decisions about options for obtaining additional staff, to include
    positioning PBGC to make use of tactics such as hiring re-employed annuitants,
    the career intern program, or expansion of the existing federal full-time equivalent
    (FTE) process.

 •	 PBGC has not recognized the significant role of contract staff in its plans for a
    potential influx of terminated pension plans. PBGC’s Human Capital Strategic
    Plan addresses the federal workforce but is largely silent with respect to PBGC’s
    contract workforce. The omission is significant, given that the Corporation
    utilizes nearly two contract staff for every one federal employee. PBGC should


                                 Semiannual Report Of The Inspector General—March 2011
                              acknowledge the critical role of contractors in future strategic and human capital
                              decisions. The support and knowledge base that contractors provide is critical to
                              the achievement of PBGC’s mission. PBGC management should either develop a
                              stand-alone human capital plan that addresses contractors and associated issues
                              or dedicate a section in the human capital strategic plan to reflect the importance
                              of contractors in meeting the current agency mission and future needs.

                            •	PBGC plans should prepare the Corporation for future workload surges.  Financial
                              uncertainties will continue to present potential challenges to PBGC’s ability
                              to deal with a surge in workload. PBGC is listed in the GAO’s High Risk list, in
                              part, because it continues to be “exposed to the threat of terminations of large
                              underfunded pension plans sponsored by financially weak firms.” The future is
                              difficult to predict. PBGC acknowledged in its FY 2010 Annual Report that no
                              reasonable estimate could be made of 2011 terminations. That uncertainty,
                              together with the exposure noted by GAO, provides sufficient reason for PBGC to
                              expand and enhance its planning for possible workload surges.

                          Our evaluation of PBGC’s strategic preparedness highlighted two additional areas of
PBGC is still impacted
                          continued high risk for the Corporation -- IT and procurement.
   by information
                             Information Technology Concerns
technology decisions

made during the last        •	 We found that PBGC continues to feel the after-effects of the influx of plans and
                               participants that occurred between FY 2002 and 2005, when PBGC became
  workload surge.              responsible for record numbers of terminated pension plans and participants. The
                               Corporation’s fragmented and stove-piped IT environment arose as a result of a
                               PBGC management mandate to meet urgent mission objectives, resulting in the
                               implementation of a variety of widely dissimilar and incompatible technologies to
                               cope with the influx of plans. We observed that PBGC had the opportunity to use
                               the influx of FY 2002 – 2005 as a dry run from which to learn lessons that could
                               have been used to prepare for a future workload surge. However, the Corporation
                               did not adequately consider ways to mitigate the types of problems that were
                               previously encountered. As a result, the planning and resource documents
                               prepared by the Office of Information Technology and the various business units
                               did not directly address actions that PBGC could take to avoid repeating the
                               mistakes of the past.


                            •	 PBGC did not fully assess its current capacity and future needs, to include
                               identifying network weaknesses and bottlenecks. Uncertainty existed whether
                               PBGC’s infrastructure could support a large influx of participants and the
                               associated additional worksites that might be needed. PBGC mission activities
                               are highly dependent upon IT, including the business network. Development
                               of a comprehensive IT performance and capacity management plan would help
                               ensure PBGC’s ability to handle a workload surge without deterioration of service.

                            •	 PBGC had not developed a capacity plan that documents the current levels of
                               resource utilization and service performance. For a number of years, PBGC had
                               been operating at an “ad hoc” level of performance and capacity management

                         PBGC Office of inspector general
    by adding servers and storage only to support a current project with little regard
    for the long-term strategic implications. As a result, PBGC had not been able to
    forecast future requirements for IT services and resources, and performance levels
    were at risk.

 Procurement Concerns

  •	 One of the major tactics that PBGC plans to use in the event of a workload surge is
     expanding its workforce through modifications to current PBGC services contracts
     or entering into new contracts. Although the plans of several departments called
     for hiring contractors to fill gaps in critical skills and competencies and, in some
     cases, department officials told us they had “assumed” that current contracts could
     be amended, the Procurement Department was not consulted about the feasibility
     of these plans. PBGC officials identified multiple contracts that would require
     modifications to meet increased demand for pension plan processing, to include
     actuarial, investment management, and document management contracts.
     However, PBGC did not develop a process for ensuring that identified contracts
     could be expanded as needed or that necessary federal personnel resources would
     be available and ready to support the award and oversight of new contracts.

Based on the results of our evaluation, we concluded that PBGC could enhance its
ability to deal with a potential influx by:

  •	 Developing a coordinated approach for addressing PBGC’s influx preparedness, to
     include a strategic plan and associated tactics for ensuring that PBGC can continue
     to meet its mission under a range of possible workload scenarios;
  •	 Ensuring that plans reflect the importance of contractors to PBGC’s strategic
     approach;
                                                                                               There is no
  •	 Analyzing lessons learned from the surge in volume that occurred during FY 2002-
     2005, which contributed to a number of PBGC’s current IT issues, and preparing           management
     ways to mitigate the risk of similar future problems; and
                                                                                             decision on this
  •	 Ensuring the feasibility of plans and making necessary refinements to position
     PBGC for readiness to address an increased workload, including the development         report as PBGC has
     of plans to expand existing contracts and a capacity management plan to ensure         not developed its
     systems are ready to support increased network and bandwidth usage.
                                                                                            proposed alternate

The Chief Operating Officer responded to our report, noting PBGC’s conclusion that               actions.
the risk of a large influx of plans is much lower now than anticipated in 2009. Further,
the response stated management’s belief that the resources needed to address
the report’s recommendations would be better used in other higher priority areas.
Accordingly, instead of implementing OIG’s recommendations as written, PBGC
proposed the creation of a Large Influx Working Group (LIWG) Planning Document
as a basis for alternative actions to address the recommendations. OIG advised
PBGC that a determination of whether PBGC’s response is sufficient for an agreed-to
management decision can be made only after PBGC completes the LIWG Planning
Document and OIG has had an opportunity to review the specific elements of the
proposed document. By the end of the reporting period, no such document had been
provided to OIG.
                                   Semiannual Report Of The Inspector General—March 2011
                         PBGC’s Information Technology Poses Significant Risk

                         PBGC is well aware that it has significant IT weaknesses – in the most recent audit of
                         PBGC’s financial statements, PBGC received an adverse opinion on its internal controls
OIG work continues to    for the second consecutive year based on significant IT issues that comprise a material
                         weakness, resulting from inadequacies in entity-wide security, access control, and
identify information
                         configuration management (see financial statement audit reporting, pages 18-23).
     technology          Our work continues to identify previously unknown or unaddressed IT vulnerabilities
                         and the Corporation has made only limited progress in its strategic corrective action
    weaknesses.
                         plans.

                         PBGC’s Actions to Correct Long-standing IT Weaknesses Are Lagging

                         In March 2010, PBGC developed a multi-year Corrective Action Plan (CAP) with the
                         intention of implementing a more effective process to address fundamental security
                         weaknesses in addition to enhancing the aging IT infrastructure. However, our
                         FY 2010-2009 Internal Control work showed that PBGC had not made significant
                         progress in implementing the recently developed CAP. We found that few major
                         corrective actions will be completed prior to the conclusion of FY 2011, other than
                         the re-certification of the General Support System. Periodic briefings of IT progress
                         subsequent to the financial statement audit have shown that many of the subsidiary
                         CAPs remain without details and some implementation dates have changed. Through
                         reports and briefings, OIG has expressed concerns to PBGC leadership regarding the
                         lack of interim corrective actions to mitigate risk while long-term measures are being
                         developed (see, e.g., synopsis of Report on Internal Control, pages 20-22). PBGC
                         management has stated that controls are being put in place to ensure the protection
                         of PBGC systems and data. We will assess PBGC’s interim measures during our FY 2011
                         internal control testing in the financial statement audit.

                         FY 2010 Federal Information Security Management Act (FISMA) Submission to
                         the Office of Management and Budget
                         LTR-2011-4/FA-10-69-3
                         (http://oig.pbgc.gov/audit/2010/pdf/fisma.pdf )

                         The Federal Information Security Management Act (FISMA) requires federal entities to
                         report annually to the Office of Management and Budget (OMB) on the state of their
                         information security. FISMA also requires Inspectors General to conduct independent
                         annual evaluations of agencies’ security programs and practices and to report the
                         results to OMB. In conjunction with the financial statement audit, we contracted with
                         Clifton Gunderson to perform, under OIG oversight, an independent evaluation to
                         assess the effectiveness of PBGC’s information security program and practices and
                         to determine compliance with the requirements of FISMA and related information
                         security policies, procedures, standards, and guidelines. PBGC received an adverse
                         opinion on internal control as part of the annual financial statements audit largely
                         as a result of IT weaknesses; PBGC management recognizes that IT infrastructure
                         and environment weaknesses will continue to pose a threat for several years while



                        PBGC Office of inspector general
corrections are implemented. We reported deficiencies in PBGC’s security management,
access controls, configuration management, and segregation of duties.

The Corporation has taken some steps to develop and begin implementation of multi-
year CAPs to address security issues. In addition to hiring the Bureau of Public Debt to
assist with its IT security plans, PBGC has procured and installed some new hardware
into its infrastructure, as it works toward modernization. Effective implementation of the
CAPs will require PBGC’s unwavering commitment of people and resources to ensure
detailed action plans and appropriate metrics are developed and milestones are met
timely.

Fiscal Year 2010 Vulnerability Assessment, Penetration Testing,
and Social Engineering Report
EVAL 2011-7/FA-10-69-6
(http://oig.pbgc.gov/audit/2011/summaries/FA-10-69-6.html)

As part of the annual financial statement audit, our independent public accountant
conducted a vulnerability assessment and penetration tests of PBGC’s information
                                                                                                Critical and high
security infrastructure to discover possible weaknesses in logical security controls and
to exploit discovered vulnerabilities. In its assessment, Clifton Gunderson found major        vulnerabilities were
issues of concern, including the need to apply patches and updates timely, deploy
passwords to certain applications, replace Windows 2000 servers, and standardize               identified in our IT
technologies.                                                                                     assessment.

Critical and high severity vulnerabilities are defined as vulnerabilities where a successful
exploit (1) may result in catastrophic physical or property damage or loss or catastrophic
loss of revenue or productivity, (2) render between 76% and 100% of the environment
at risk, and (3) the loss of confidentiality, integrity, or availability is likely to have a
catastrophic adverse effect. Clifton Gunderson’s testing disclosed a large number of
critical and high severity vulnerabilities as well as several thousand medium and low
vulnerabilities. During testing, certain vulnerabilities were successfully exploited,
indicating the need for prompt and effective corrective action.

Because this report contains sensitive information, only the transmittal letter, which
contains a high-level discussion of the issues identified, is on the OIG website.




                                     Semiannual Report Of The Inspector General—March 2011
 Fiscal Year 2010 Federal Information Security Management Act (FISMA)
 Independent Evaluation Report
 EVAL 2011-9/FA-10-69-8
 (http://oig.pbgc.gov/audit/2011/pdf/fa-10-69-8.pdf )

 As a result of FISMA audit work, we issued a report to provide detailed
 information on the results of our review of PBGC’s information security program.
 Our evaluation showed that PBGC has not established an effective information
 security program. The report’s three FISMA findings with seven recommendations
 were based on the results of our FY 2010 independent evaluation. In addition,
 19 FISMA-related findings with 42 recommendations were reported in the
 Corporation’s FY 2010 internal control report based on our FY 2010 financial
 statements audit work.

 The results of our review were similar to those found during our prior year
 (FY 2009) audit; in that report we explained that PBGC had not established an
 effective information security program and had not been proactive in reviewing
 security controls and identifying areas to strengthen this program. In response,
 PBGC developed and began implementing a multi-year CAP to address security
 issues at the root cause level. PBGC management realizes these weaknesses will
 continue to pose a threat to its environment for several years while corrective
 actions are being implemented. PBGC will need to implement interim corrective
 actions to ensure fundamental security weaknesses do not worsen as the CAP is
 being implemented.

 PBGC’s management stated their general agreement with all recommendations
 in the FY 2010 report. However, PBGC revised its approach regarding the
 establishment and monitoring of the entity-wide plan of action and milestones
 (POA&M), as noted in its response to the FY 2009 report. Before we can agree
 to the revised approach, OIG will need additional details to ensure that process
 includes the identification, review and correction of issues and items that fall
 outside the POA&Ms for major applications or PBGC’s general support systems.

 Financial Statement Audit: Unqualified Opinion on
 Financial Statements and an Adverse Opinion on
 Internal Controls
 Audit of the Pension Benefit Guaranty Corporation’s Fiscal Year 2010 and
 2009 Financial Statements
 AUD-2011-2/FA-10-69-1
 (http://oig.pbgc.gov/audit/2011/pdf/FA-10-69-1.pdf )

 Unqualified Opinion on Financial Statements

 For the 18th consecutive year, our audit of PBGC’s Single-Employer and
 Multiemployer Program Funds concluded that the financial statements were
 presented fairly, in all material respects, in conformity with accounting principles
 generally accepted in the United States of America. In this unqualified or “clean”

PBGC Office of inspector general
opinion on PBGC’s financial statements, other information important to understanding
PBGC’s financial position is included. By law, PBGC’s Single-Employer and Multiemployer
Program Funds must be self-sustaining. However, over a long course of years, PBGC has
operated in a deficit position – i.e., its long-term liabilities to pay the pension benefits to
participants in terminated pension plans exceed its assets.

As of September 30, 2010, PBGC reported net deficit positions in the Single-Employer
Program Fund of $21.6 billion and in the Multiemployer Program Fund of $1.4 billion.
While PBGC has been able to meet its short-term benefit obligations, as noted in our
audit report and discussed in Note 1 to the financial statements, PBGC management
believes that neither program at present has the resources to fully satisfy PBGC’s long-          PBGC received the
term obligations to plan participants.
                                                                                                   18th consecutive
As an insurer, PBGC is required to estimate the loss exposure that is reasonably possible
                                                                                                  unqualified audit
as a result of unfunded vested benefits in not-yet-terminated pension plans. Our report
explained that PBGC estimated the loss exposure that is reasonably possible for the                opinion, but an
Single-Employer and Multiemployer Programs to be $169.7 billion and $20 billion,
                                                                                                  adverse opinion on
respectively. For the Single-Employer Program, PBGC estimated this liability using data
for FYs ending in calendar year 2009 from filings and submissions to the government                internal control.
(which was the latest available) and from corporate annual reports. This estimated
liability amount had not been adjusted for economic conditions through September 30,
2010. As a result the exposure to loss for the Single-Employer Program as of September
30, 2010, could be substantially different from the estimate reported in PBGC’s financial
statements.

The financial statements audit was conducted by Clifton Gunderson LLP under contract
with our office. The work was performed under OIG’s general oversight.

Compliance with Laws and Regulations

Our tests of PBGC’s compliance with selected laws and regulations did not disclose any
instances of reportable non-compliance. However, because the objective of the audit
was not to provide an opinion on overall compliance with laws and regulations, no such
opinion was expressed.

Adverse Opinion on Internal Control

For the second consecutive year, we reported that PBGC had not maintained effective
internal control over financial reporting (including safeguarding assets) and compliance
with laws and regulations and its operations as of September 30, 2010. The material
weakness described below was serious enough to result in the expression of an adverse
opinion on internal control. Three significant deficiencies were reported, including
deficiencies in PBGC’s (1) entity-wide security program planning and management,
(2) access controls and configuration management, and (3) integrated financial
management systems. The combination of significant deficiencies in PBGC’s internal
control was considered to be a material weakness.

Since the time of the first adverse internal control opinion in the FY 2009 financial
statements audit report, PBGC has made only minimal progress. Though it has

                                     Semiannual Report Of The Inspector General—March 2011
                     initiated efforts in the reorganization and improvement of its security planning and
                     management through the design and implementation of a more coherent strategy to
                     manage its information systems, these efforts are not complete.

                     Report on Internal Control Related to the Pension Benefit Guaranty
                     Corporation’s Fiscal Year 2010 and 2009 Financial Statements Audit
                     AUD-2011-3/FA-10-69-2
                     (http://oig.pbgc.gov/audit/2011/pdf/FA-10-69-2.pdf )

                     As part of the annual financial statements audit discussed above, Clifton Gunderson
Interim corrective
                     prepared an internal control report to provide more detailed discussions of the
actions are needed   specifics underlying the significant deficiencies and material weakness reported in
                     the internal control opinion of the combined Independent auditor’s report. PBGC’s
to protect PBGC’s
                     response to this internal control report indicated management’s agreement with
 information and     and their commitment to addressing each recommendation, and to remediating the
                     associated material weakness.
    systems.
                     The internal control report provided details about significant deficiencies in the
                     following areas, which combined constitute a material weakness:

                     1. Entity-wide Security Program Planning and Management;
                     2. Access Controls and Configuration Management; and
                     3. Integrated Financial Management Systems.

                     The combination of these three significant deficiencies constituted a material
                     weakness in internal control.

                       •	 Entity-wide Security Program Planning and Management – An entity-wide
                          information security management program is the foundation of a security control
                          structure and a reflection of senior management’s commitment to addressing
                          security risks. The security management program should establish a framework
                          and continuous cycle of activity for assessing risk, developing and implementing
                          effective security procedures, and monitoring the effectiveness of these
                          procedures.


                     During FY 2010, PBGC decided to develop and implement a series of multi-year CAPs
                     to address fundamental weaknesses in its entity-wide security program planning and
                     management. PBGC entered into an Inter-Agency Agreement with the Bureau of Public
                     Debt to assist the Corporation in reassessing its security program and developing a
                     framework for implementing a more coherent strategy for correcting fundamental IT
                     security weaknesses at the root cause level. These weaknesses will continue to pose
                     a threat to PBGC’s environment for several years while corrective actions are being
                     implemented. Because many of these CAPs will not begin until 2012-2013 and are
                     not scheduled for completion until 2015, we have noted the exigent need for interim
                     corrective action to protect PBGC’s information and systems.  (See pages 14-17 for a
                     discussion of IT progress.)



                     PBGC Office of inspector general
One long-standing issue is PBGC’s failure to have an effective Certification &
Accreditation (C&A) program to provide security assurance about its IT systems. PBGC
abandoned its former C&A methodology and is working with BPD to revise and
strengthen its C&A process to ensure security weaknesses are addressed at the root
cause level. PBGC did not conduct any C&As in fiscal year 2010, though it continues to
operate all of its systems with few, if any, interim security measures to mitigate risk.

  •  Access Controls and Configuration Management – We reported that PBGC’s
     decentralized approach to system development, system deployment, and
     configuration management created an environment that lacked a cohesive
     structure in which to implement controls and best practices. Weaknesses in the
     IT environment contributed to deficiencies in system configuration, segregation
     of duties, role-based access controls, and monitoring. Furthermore, PBGC’s              Three significant
     information systems were overlapping and duplicative, employing obsolete
     and antiquated technologies that were costly to maintain. The state of PBGC’s         deficiencies comprise
     IT environment led to increased IT staffing, manual workarounds, additional           the material weakness
     reconciliation procedures, extensive manipulation, and excessive manual
     processing. However, these compensating controls were ineffective in mitigating       in the internal control
     system control weaknesses.                                                                   opinion.

Ineffective access and configuration management controls did not provide PBGC with
sufficient assurance that financial information and financial assets are adequately
safeguarded from inadvertent or deliberate misuse, fraudulent use, improper
disclosure, or destruction. Access controls should be in place to consistently limit,
detect inappropriate access to computer resources (data, equipment, and facilities),
or monitor access to computer programs, data, equipment, and facilities, thereby
protecting against unauthorized modification, disclosure, loss, or impairment.
Configuration management and control procedures are critical to establishing an
initial baseline of hardware, software, and firmware components and subsequently
controlling and maintaining an accurate inventory of any changes to the system.

These weaknesses will continue to pose a threat to PBGC’s environment for several
years while corrective actions are being implemented. Thus, PBGC will need to
implement interim corrective actions to ensure fundamental security weaknesses do
not worsen over the planned five-year CAP implementation.

  •	 Integrated Financial Management Systems – As reported in prior year audits, the
      risk of inaccurate, inconsistent, and redundant data was increased because PBGC
      lacked a single integrated financial management system. The system could not be
      readily accessed and used by financial and program managers without extensive
      manipulation, excessive manual processing, and inefficient balancing of reports to
      reconcile disbursements, collections, and general ledger data.


OMB Circular A-127, Financial Management Systems, requires that Federal financial
management systems be designed to provide for effective and efficient




                                  Semiannual Report Of The Inspector General—March 2011
interrelationships between software, hardware, personnel, procedures, controls, and
data contained within the systems. This Circular states:

 •  The term “single, integrated financial management system” means a unified set of
    financial systems and the financial portions of mixed systems encompassing the
    software, hardware, personnel, processes (manual and automated), procedures,
    controls and data necessary to carry out financial management functions, manage
    financial operations of the agency and report on the agency’s financial status to
    central agencies, Congress and the public. Unified means that the systems are
    planned for and managed together, operated in an integrated fashion, and linked
    together electronically in an efficient and effective manner to provide agency-
    wide financial system support necessary to carry out the agency’s mission and
    support the agency’s financial management needs.

Because PBGC has not integrated its financial systems, PBGC’s ability to accurately and
efficiently accumulate and summarize information required for internal and external
financial reporting is impacted.

Audit of the Pension Benefit Guaranty Corporation’s
Fiscal Year 2010 and 2009 Special-Purpose Financial Statements
AUD-2011-5/FA-10-69-4
(http://oig.pbgc.gov/audit/2011/pdf/FA-10-69-4.pdf )

As part of the annual financial statements audit, Clifton Gunderson also audited
the PBGC Fiscal Year 2010 and 2009 Special-Purpose Financial Statements. The
auditors concluded that the special-purpose financial statements and accompanying
notes presented fairly, in all material respects, the financial position of PBGC as of
September 30, 2010 and 2009, and its net costs and changes in net position for the
years then ended in conformity with accounting principles generally accepted in the
United States of America and that the presentation was consistent with requirements
of the U.S. Department of the Treasury (Treasury).

PBGC prepares special-purpose financial statements to provide financial information
to the Treasury and GAO through the Government-wide Financial Reporting System
for GAO’s use in preparing and auditing the Financial Report of the U.S. Government.
The special purpose report is not intended to be a complete presentation of PBGC’s
financial statements. Rather, these special purpose financial statements link PBGC’s
audited financial statement to the Financial Report of the United States Government.

Fiscal Year 2010 Financial Statements Audit Management Letter
AUD-2011-6/FA-10-69-5 (not publicly available)

 The annual financial statements audit process led to the identification of certain less
 significant matters related to PBGC internal control and operations that were not
 included in the internal control report (AUD-2011-3/FA-10-69-2), discussed above. The
 management letter summarized findings that resulted in 19 new recommendations
 regarding those less significant matters and reported on the status of 33



PBGC Office of inspector general
recommendations that remain open from prior years’ management letter
recommendations.

While these management letter findings and recommendations were not material
control issues and were not material in dollar value, when considered in context
of PBGC’s financial statements, they are nonetheless important because they
are intended to improve PBGC’s internal control or result in other operational
improvements. The findings with new recommendations address areas such as:

 • payment and processing of benefit payments;
 • contract administration;
  • approval of speaking engagements; and
  • internal processing of travel, personnel actions, and performance plans.
In responding to the management letter, PBGC leadership agreed with the
recommendations and provided planned corrective actions and estimated
completion dates.

Senator Brown’s Constituents Raise Issues on Pension
Plans
Letter to Senator Sherrod Brown Regarding Republic Technologies Inc.
LTR-2011-8
(http://oig.pbgc.gov/reports/pdf/Brown_Letter.pdf )

At the request of Senator Sherrod Brown (D-OH), we conducted limited scope                  OIG response to
inquiries on various issues raised by some of his constituents concerning PBGC’s
actions in terminating the Republic Technologies International, LLC (RTI) pension        Congressional request
plans. Of particular concern was an agreement entered into in 1998 between PBGC          addressed questions
and RTI for the company to put an additional $177.7 million into the pension plan.  
The agreement between PBGC and RTI was made under the umbrella of PBGC’s “Early            about negotiated
Warning Program,” which focuses on transactions that pose a risk of long-run loss to      funding agreement
PBGC’s pension insurance program, and typically involves transactions by troubled
companies and by companies whose plans are underfunded on a current liability             between PBGC and
basis. If PBGC determines a transaction could result in a significant increase in the
                                                                                         pension plan sponsor.
risk of loss under section 4042(a)(4) of ERISA, PBGC may negotiate protections for
the pension insurance program, which might include additional cash contributions,
letters of credit, security interests, and guarantees.

PBGC negotiated eight amendments to the RTI agreement. RTI made $64.5 million of
the additional funding payments to the plan prior to filing for bankruptcy protection
in 2001. Although we did not conduct an audit in response to Senator Brown’s
request, we did provide a letter with information about requested RTI pension
plan documents. In our letter, we stated PBGC did not have written guidance on
conducting negotiations for deferral of payments in the agreements and conducted
negotiations on a case-by-case basis. We also noted that while PBGC’s process
for determining RTI participant benefits had been complicated and lengthy, the
Corporation had provided us with evidence of a detailed and well documented
process for selected participant determinations.

                                 Semiannual Report Of The Inspector General—March 2011
                     Investigators Engaged in Multiple Approaches
                     to Address Pension Fraud
                     Article in PBGC Retiree Newsletter. OIG Hotline complaints alleging theft of benefit
                     checks are increasing. Often, participants report that they were not aware of the risk
                     that a trusted family member might forge their signature and cash a benefit check.
                     Frequently, OIG investigators work with the Retiree Services Division to verify the
                     claims of participants who report that they have not received checks. To mitigate
                     the risk of theft and educate participants about protecting personally identifiable
                     information, OIG published an article in the PBGC Retiree Newsletter to provide
                     information about fraud and how to contact OIG. This newsletter was mailed to each
                     individual who currently receives, or will receive in the future, a pension benefit from
                     PBGC (accessible at http://www.pbgc.gov/documents/fall2010.pdf ).

                     Claim for Former Spouse’s Pension Benefits. The PBGC Disclosure Division referred
                     an inquiry from a participant’s former wife who wrote to PBGC inquiring about her
                     entitlement to the pension of her deceased husband. The inquiry was referred to
                     OIG for review due to questions about the validity of a Power of Attorney filed by the
                     participant’s companion.

                     Our investigation determined that in 2008, three weeks prior to the death of the
                     participant from a terminal illness, PBGC received a Participant Application for Pension
                     Benefits that appeared to have been completed and signed by a third party. The
                     ex-wife made a claim for benefits and disputed the entitlement to benefits by the
                     participant’s companion.

                     We interviewed the third party who produced a validly signed Power of Attorney
                     dated three months prior to the participant’s death. The companion explained that
                     she was aware that she would not receive benefits. Our investigation confirmed
                     that the participant had not elected to receive his pension with a survivor benefit,
                     therefore, neither the ex-wife nor companion was entitled to benefits.

                     Prevention of Benefit Check Fraud. A check cashing facility in Washington State
                     contacted OIG indicating that a customer had attempted to cash a PBGC benefit
                     check with what appeared to be alterations in the name of the payee. Upon our
                     determination that the customer attempting to cash the check was not the intended
                     recipient, we alerted PBGC of the attempted fraudulent activity and recommended
                     placing a stop payment on the check. As a result of our timely actions, a stop
Participant’s wife   payment was placed on the benefit check which prevented a potential loss of the
                     participant’s benefits. OIG referred the matter to local law enforcement for further
misappropriated      action.
  benefit check       
                     Funds Recovered from Intercepted Check. The Miami FBA office referred a
and paid funeral     participant’s claim he did not receive a lump sum payment he should have received.
   expenses.         Our investigation revealed that the ex-wife of the participant completed an




                     PBGC Office of inspector general
application for lump sum payment, using the participant’s name and identifying
information, and directed that the check to be mailed to her residence. We discovered
that when the former spouse received the check, she asked the local funeral home
to cash the check and settle outstanding burial expenses. OIG recovered the benefit
funds from the funeral home and coordinated with the PBGC Retiree Services Division
(RSD) to have a replacement check issued to the participant. Although we referred the
case to the appropriate federal authorities, prosecution was declined.

Assistance with Identity Theft Issues. The RSD reported to OIG that, in a pension
plan for which PBGC was responsible to pay benefits, participants had been identified
who appeared to be illegal aliens, employed under another person’s name and social
security number. The RSD sought assistance from OIG on methods to identify, locate,
and verify the correct participants for lump-sum payments.

When retirement benefits have been earned by workers under a false name and social
security number -- a form of identity theft -- the risk exists that the benefits may be
claimed by the victim of the identity theft, even though the victim did not actually
earn the benefits and is not entitled to them. Programs like PBGC’s Missing Participant
program increase the likelihood that a victim of identity theft may learn of
benefits earned by someone using the victim’s stolen identity. Identity theft victims
who learn of benefits earned by thieves may be tempted to cash in by claiming
retirement benefits to which they are not entitled. We are continuing to work with
RSD to support them in ensuring that PBGC payments are made only to workers who            PBGC employees
actually earned benefits, and to reduce the risk of unearned payments to victims of        correctly identify
identity theft.
                                                                                           “fake” promotion
Investigations of Alleged Wrongdoing                                                       documentation.

Attempted Promotion Fraud by PBGC Employee

An employee resigned after receiving a letter of proposed removal from the Office
of Personnel Management based on false statements regarding the employee’s
education that were discovered in the employee’s background investigation. Upon
clearing out the employee’s workspace, PBGC found a personnel action letter
requesting approval to appoint the employee to a new position at a salary level four
grades above her current salary level, based on her superior qualifications. The letter,
which was on PBGC letterhead, appeared to bear the signatures of multiple PBGC
managers as required to effectuate the promotion.

We verified that the responsible managers had not recommended the employee
for promotion.  Each of the mangers confirmed that the signatures and/or initials
on the letter were not theirs. We found that the employee had not been promoted,
demonstrating that the attempted fraud had not been successful. The PBGC
employees who found the questionable document acted appropriately in referring it
to our office.




                                 Semiannual Report Of The Inspector General—March 2011
                    Allegations of Abuse of Position and Interference with Investigation

                    The Office of General Counsel referred an allegation to OIG when it appeared a
                    manager had interfered with an ongoing investigation conducted by the Harassment
                    Investigation Committee (HIC). While the HIC was considering an allegation from a
                    contractor that the manager had engaged in sexual harassment, the manager and his
                    department director reinstated a task order for the contractor to conduct work that
                    had previously been cancelled because it was determined to be “out of scope” of the
                    contract. It appeared that the task order reinstatement may have been an inducement
                    for the contractor to cease pursuit of her sexual harassment allegation.

                    OIG investigators acted quickly to collect the facts and found that the department
                    director made the decision to reinstate the task order, in consultation with several
                    department managers including the alleged discriminator and a procurement official,
                    to avoid some potential conflicts of interest and duplicative work with another
                    contractor. While the department director did know that this contractor had filed a
                    complaint of sexual harassment against the particular manager, he did not know the
                    allegation’s details as he immediately referred it to “the ethics folks.” We concluded
                    that, though the timing of certain actions created an appearance of interference in
                    the investigation, the evidence substantiated a determination that neither the alleged
                    discriminating manager nor the department director had acted improperly with
                    respect to the HIC investigation.

                    Open Audit Recommendations

                    As of October 1, 2010, the beginning of the reporting period, a total of 163 audit
                    recommendations were open. Reports issued during the period added 43 more
PBGC took actions   recommendations, bringing the total number to 206. Only one recommendation
                    was closed during the period, although progress was reported in a number of areas.
 to address 52 of   We note that PBGC submitted 52 Recommendation Completion Forms (RCFs) during
 the open audit     the period:  15 related to financial statement audit recommendations and 37 related
                    to other OIG audits. As of March 31, OIG was assessing the effectiveness of PBGC’s
recommendations.    actions. During the period ending September 30, we will communicate to PBGC
                    whether evidence for the 37 RCFs is sufficient to close the recommendation or further
                    work is needed. Those RCFs related to financial statement audit recommendations
                    will be reviewed as part of this year’s audit. With regard to contracting and
                    procurement, OIG has initiated an audit engagement that will assess the effectiveness
                    of corrective actions taken in response to many of the open audit recommendations.

                    As of March 31, 2011, 205 audit recommendations remain open. These
                    recommendations address a range of issues, from the most serious problem affecting
                    PBGC to relatively minor compliance issues. In some cases, we met with PBGC
                    officials to discuss management’s reported corrective actions when we determined
                    that what had been done was not sufficient to fully address the recommendations.
                    As warranted, we provided detailed memoranda outlining the need for additional
                    information. Many of our comments related to management’s need to test the
                    corrective action to ensure it had been fully implemented and was effective.


                    PBGC Office of inspector general
The following chart shows the distribution of open recommendations based on the
subject of the recommendation. More than half of the recommendations relate to
needed improvements in either information technology or contracting.




                                                                                                          PBGC has made

                                                                                                             correcting

                                                                                                        procurement-related

                                                                                                         findings a priority.



  Note: Of the 205 open audit recommendations included in this chart, as of March 31, 2011, PBGC had
    submitted evidence for consideration of closure for 52 recommendations: 34 were in Contracting, 4
    in Financial & Investment, 9 in Benefits Administration, and 5 in Other.



Many of our recommendations have been open for prolonged periods of time.
93 of the recommendations are more than two years old.  37 recommendations (about
18 percent) are more than five years old; many of the recommendations address the
need for improvements in contracting practices and should be implemented in the
near future. Other recommendations that have persisted for more than five years
address weaknesses in PBGC’s existing automated premium accounting system; these
recommendations will likely remain open until PBGC can implement its new system
for premium accounting.




                                        Semiannual Report Of The Inspector General—March 2011
PBGC reports that it plans to complete many of its open recommendations in the near
future. As shown by the following chart, more than 130 of the 205 recommendations
(63%) are scheduled for completion within the next six month period.  About 68 of the
recommendations will not be completed for at least a year. Certain recommendations
relating to PBGC’s information technology security are not scheduled for completion
until 2015 and 35 (17%) of the recommendations do not have a date of planned
completion. PBGC should ensure effective interim measures to address the issues that
will remain open for several years.




Despite the fact that many recommendations remain open, overall, we are
encouraged by management’s emphasis on correcting noted deficiencies, testing
their actions and submitting complete documentation to support closure of open
audit recommendations. OMB Circular A-50 notes that “Corrective action taken by
management on resolved findings and recommendations is essential to improving
the effectiveness and efficiency of government operations.”




PBGC Office of inspector general
Other OIG Reporting
Access to Information

The Inspector General Act permits the Inspector General to have unfettered access
to all agency records, information, or assistance when engaged in an investigation
or audit. Whenever access to requested records, information, or assistance is
unreasonably refused or not provided, the Inspector General must promptly report
the denial to the agency head. We have not been denied access nor has assistance
been unreasonably refused during this reporting period.

Management Decisions

The Inspector General is required to report the following about management
decisions on audit reports that occurred during this six-month period:

•   There are two audit reports for which management decision is pending.  One report
is more than six months old (see Appendix, page 39). The second report is described
on page 12.
•   There were no significantly revised management decisions.
•   There were no management decisions of a material nature with which we did not
agree.

Audit Peer Review Results

In an external peer review of the PBGC OIG’ s audit program for the year ending
September 30, 2009, we received the highest possible peer review rating, a rating of
“pass.” The “pass” rating means that the external reviewer determined that our system
of quality control was suitably designed and our adherence to this system provided
reasonable assurance that we performed work and reported results in accordance
with professional standards.


Government Auditing Standards require each audit organization to obtain an external
review of its system of quality control every three years and make the results publicly
available. In addition, under the Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010, the Inspector General is required to report the results of its
peer review in its semiannual report to Congress.

The peer review was conducted by the Federal Communications Commission (FCC)
during the first quarter of FY 2010, with the opinion issued on January 26, 2010. A
copy of this peer review is found at our website:  http://oig.pbgc.gov/audit/2010/pdf/
PBGC_Peer_Review_Report_2009.pdf.




                                   Semiannual Report Of The Inspector General—March 2011
                      THIS PAGE INTENTIONALLY LEFT BLANK




PBGC Office of inspector general
Other Office of Inspector
General Activities
Review of Proposed Statutory and Regulatory Changes
A major responsibility of the OIG under the Inspector General Act is the independent
review of PBGC-proposed changes to laws and regulations. There were no significant
PBGC statutory proposals this period, and OIG did not review any new proposed
regulations.


New Strategic Plan
The Inspector General issued a new strategic plan for 2011-2016, a copy of which is       OIG adopted a new
included at the end of this report. Our plan establishes goals related to performance,
                                                                                            Strategic Plan.
communication with our stakeholders and our workforce, strategies to achieve these
goals, and metrics for each. We will report on our performance in accordance with our
strategic plan in future semiannual reports.

Audit Peer Review of CPB
We conducted a quality control review of the audit operations of the Office of
Inspector General of the Corporation for Public Broadcasting (CPB). External peer
reviews are conducted within the OIG community to evaluate the audit organization’s
system of internal quality control and to ensure that it complies with generally
accepted government auditing standards (the GAO Yellow Book). As part of the peer
review, we evaluated the CPB OIG’s staff qualifications, their independence, audit
work, training, and quality control procedures. The results of this peer review can be
found on the CPB OIG’s website at www.cpb.org/oig.


Enhanced Independence by Contracting for
HR Services
Effective January 1, 2011, we entered into an interagency agreement with the
National Business Center (NBC) of the Department of Interior to provide most of our
human resources services, including position classification, recruitment, hiring, and
retirement counseling. In addition, NBC is providing human resources information to
staff and advice and support to managers as they exercise supervisory responsibilities.




                               Semiannual Report Of The Inspector General—March 2011
                            External and Internal Professional Activities
                            Various staff members participated in external and internal professional activities.
                            Examples include:

                              •  The IG participates in the Council of Inspectors General for Integrity and Efficiency
                                 (CIGIE) that promotes collaboration on integrity, economy, and efficiency issues
                                 that transcend individual agencies. Ms. Batts serves as the co-chair of the CIGIE
                                 Information Technology Committee (see details below) and as a member of the
                                 Audit Committee. She also serves as the CIGIE delegate to the Chief Financial
                                 Officer’s Council.
                              •  The IG co-leads the CIGIE IT Committee which facilitates effective OIG information
                                 technology audits, evaluations, reviews, and investigations throughout the
                                 Inspector General community and provides the community’s perspective on
We strongly support              government-wide IT operations. Committee activity during this semiannual
                                 period addressed a wide range of issues, including cloud computing and the
our staff, at all levels,        contract clause language needed to ensure meeting the unique needs of the
   participating in              Federal IG community in future cloud computing contracts, digital forensic
                                 standards including the IG community approach to review of compliance with
activities to positively         those standards, and the Trusted Internet Connections (TIC) Initiative including
 impact the Federal              efforts to secure the OIG network boundary.
                              •  The IG and Assistant IG for Investigations (AIGI) participated as guest speakers in
     government.
                                 a session of the Executive Leadership Training sponsored by CIGIE. This course is
                                 attended by GS-13s and GS-14s from throughout the IG community. The focus
                                 of their presentation was the value of networking within the OIG community to
                                 achieve mission goals and objectives.
                              •  The IG served on the planning committee for the second annual “Key Executive
                                 Leadership Forum” at American University. The theme was “Bridging Academics
                                 and Application,” with sessions on new theories of leadership, adult learning and
                                 effective feedback, as well as practical applications. The conference was held in
                                 May and, while open to all, was focused on the graduates of the Masters of Public
                                  Administration program jointly sponsored by CIGIE and American University.
                              •	 The Assistant IG for Audits serves on  the Accounting and Audit Policy Committee
                                 (AAPC) which is a permanent committee established by the Federal Accounting
                                 Standards Advisory Board. Federal accounting standards and financial reporting
                                 play a major role in fulfilling the government’s duty to be publicly accountable.
                                 The AAPC issues technical releases related to existing Federal accounting
                                 standards. AAPC’s technical releases are a form of authoritative guidance for
                                 generally accepted accounting principles for Federal entities. During period
                                 the AAPC issued two exposure drafts for public comment. These documents
                                 concerned technical guidance for estimating the historical cost of general
                                  property plant and equipment (G-PP&E) and accounting for the disposal of
                                  G-PP&E.
                               •	 At the request of the CIA Inspector General, the AIGI is serving with others
                                  from the OIG community on an external advisory committee to implement


                            PBGC Office of inspector general
  reforms within the CIA OIG. In this capacity, the AIGI is providing guidance and
  suggestions to senior management about investigative best practices, as well as
  how best to implement the ongoing reforms.
•	 Our IT audit manager participates in the Federal Audit Executive Council’s IT
   Group.
•	 The Special Agent-in-Charge participates in the National Procurement Fraud Task
   Force sponsored by the U.S. Department of Justice.
•	 One of our senior auditors attends the Interagency Fraud and Risk Data Mining
   Group (IFRDMG) quarterly meeting and training sessions. IFRDMG meets to
   share information among OIGs concerning the latest data analysis techniques,
   accomplishments using data analytics, recommended data mining software and
   related training.
•	 The AIGI continues to serve as a non-voting member of PBGC’s Internal Control
   Committee, providing insight gained through his experience as a criminal
   investigator to those responsible for oversight and accountability of PBGC
   internal controls. Effective control systems may detect fraud or deliberate non-
   compliance with policies, regulations, or laws.




                             Semiannual Report Of The Inspector General—March 2011
                        THIS PAGE INTENTIONALLY LEFT BLANK




PBGC Office of inspector general
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector General Act
of 1978, as amended, to the specific pages in the report where they are addressed.

Inspector General
Act Reference	         Reporting Requirements.			                                    Page
Section 4(a)(2)	       Review of legislation and regulations.			                     31
Section 5(a)(1)	       Significant problems, abuses, and deficiencies.			            5-24
Section 5(a)(2)	       Recommendations with respect to significant 			               5-23
	                      problems, abuses, and deficiencies.	
Section 5(a)(3)	       Prior significant recommendations on which			                 26-28
	                      corrective action has not been completed.	
Section 5(a)(4)	Matters referred to prosecutorial authorities.			                    24
Section 5(a)(5)	       Summary of instances in which information 			                 29
	                      was refused.	
Section 5(a)(6)	       List of audit reports by subject matter, showing 			          37
	                      dollar value of questioned costs and
	                      recommendations that funds be put to better use.	
Section 5(a)(7)	       Summary of each particularly significant report. 	   	 	      5-23
Section 5(a)(8)	       Statistical table showing number of reports and 	 	 	         37
	                      dollar value of questioned costs.		
Section 5(a)(9)	       Statistical table showing number of reports and 			           37
	                      dollar value of recommendations that funds be
	                      put to better use.	
Section 5(a)(10)	      Summary of each audit report issued before this 			           39
	                      reporting period for which no management
	                      decision was made by end of the reporting period.	
Section 5(a)(11)	      Significant revised management decisions.			                  29
Section 5(a)(12)	      Significant management decisions with which 			               29
	                      the Inspector General disagrees.	
		




                                    Semiannual Report Of The Inspector General—March 2011             35
SUMMARY OF AUDIT AND INVESTIGATIVE ACTIVITIES
For the Six-Month Period Ending March 31, 2011

Audit Reports Issued
	  Number of Reports	                                             10
	  Number of Recommendations	                                     43
Management Decisions
	   Open Recommendations Beginning of Period	                   163
	   Opened This Period	                                          43
	Closed This Period	                                              1
	   Open Recommendations End of Period	                         205
	   Reports with Open Recommendations End of Period	             42
Investigations
	   Pending Beginning of Period	                                   6
	   Opened	                                                        6
	Closed	                                                           4
	   Pending End of Period	                                         8
Complaints1
	   Pending Beginning of Period	                                  11
	   Opened	                                                       55
	Closed	                                                          51
	   Pending End of Period	                                        15
Financial Recoveries2
	   Theft of Funds Recovered	                                $3,991
	Court Ordered Fines, Penalties, and Restitution	                $0
	U.S. Government Property Recovered	                             $0
Criminal Actions2
	   Arrests, Indictments, Convictions	                             0
	
Administrative Actions2	                                           0
	

Referrals
	   For Prosecution:
		 Department of Justice	                                          1
	   Various States’ Attorney Offices	                              1
		         Declined	                                               0
	   For Other Action:
		        PBGC Management for Corrective Action	                   0
     1
      Complaints include allegations received through the hotline operation and issues resulting from proactive
       investigative efforts.
     2
      Results reported for Financial Recoveries, Criminal, and Administrative Actions include both open and closed cases.




                     36      PBGC Office of inspector general
RESULTS OF REPORTS ISSUED
For the Six-Month Period Ending March 31, 2011
                                                        Number                         Questioned                    Unreported                  Funds put to
                                                       of Reports                           Costs                         Costs                    Better Use
 A. For which no management decision had                                1                          $97,581                            $0                             $0
    been made by the commencement of the
    reporting period.
 B. Which were issued during the reporting period.
   Audit of the Pension Benefit Guaranty                                                               $0                           $0                            $0
     Corporation’s Fiscal Year 2010 and 2009
     Financial Statements (11/12/10)
   Report on Internal Control Related to the                                                           $0                           $0                            $0
     Pension Benefit Guaranty Corporation’s Fiscal
     Year 2010 and 2009 Financial Statements
     Audit (11/12/10)
   FY 2010 Federal Information Security                                                                $0                           $0                            $0
      Management Act (FISMA)Submission to
      the Office of Management and Budget
      (11/12/10)
   Audit of the Pension Benefit Guaranty                                                               $0                           $0                            $0
     Corporation’s Fiscal Year 2010 and 2009
     Special-Purpose Financial Statements
     (11/15/10)
   Evaluation of PBGC’s Strategic Preparations for                                                     $0                           $0                            $0
     a Potential Influx (11/16/10)
   Letter Report to Senator Sherrod Brown re                                                           $0                           $0                            $0
      Republic Technologies, Inc. (4/14/11)
   Fiscal Year 2010 Financial Statements Audit                                                         $0                           $0                            $0
      Management Letter (2/24/11)
   Fiscal Year 2010 Vulnerability Assessment,                                                          $0                           $0                            $0
      Penetration Testing, and Social Engineering
      Report (2/24/11)
   PBGC’s Plan Asset Audit of National Steel                                                           $0                           $0                            $0
     Pension Plans Was Seriously Flawed (3/30/11)
   Fiscal Year 2010 Federal Information Security                                                       $0                           $0                            $0
      Management Act (FISMA) Independent
      Evaluation Report (3/31/11)

     Total (Add A. & B.)                                            11                           $97,581                            $0                             $0




                                                   Semiannual Report Of The Inspector General—March 2011                                                   37
C. For which a management decision was made                       9       $0    $0   $0
   during the reporting period.

       (i) dollar value of disallowed costs                               $0    $0   $0

       (ii) dollar value of costs not disallowed                          $0    $0   $0

D. For which no management decision had been                      2   $97,581   $0   $0
   made by the end of the reporting period.
E.	 For which no management decision was made                     1   $97,581   $0   $0
    within six months of issuance.
1
    Unsupported costs are a subset of questioned costs.




                       38      PBGC Office of inspector general
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED

                                                                                                Anticipated
 Report and Summary                                     Reason For No Management Decision       Management
                                                                                                  Decision
 Incurred Cost Audit, 2008-09/CA-0054 (9/30/2008)       Management decision is pending           10/31/2011
                                                        as it awaits DCAA’s completion of its
                                                        incurred cost audit and settlement of
Questioned Costs of $97,581 for unallowable costs       indirect cost rates.
associated with the use of unaudited indirect cost
rates.




                                                     Semiannual Report Of The Inspector General—March 2011    39
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                                      Number of
Report Number, Report Title and                                Significant Problems Summary of Significant
                                      Significant
Date Issued                                                    and Deficiencies     Recommendations
                                      Recommendations
96-4/23093-2                                                   Significant             PBGC needs to complete the
Audit of the Pension Benefit                                   Deficiency:             integration of its financial
Guaranty Corporation’s Fiscal                                  Integrating             management systems.
Year 1995 Financial Statements                                 Financial
03/13/1996                                                     Management
     and                                                       Systems
                                               1
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on
Internal Control - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007

2003-3/23168-2                                                 Significant             PBGC needs to complete its
Audit of the Pension Benefit                                   Deficiency:             efforts to fully implement
Guaranty Corporation’s Fiscal Years                            Entity-Wide             and enforce an effective
2002 - 2001 Financial Statements                               Information             information security program.
01/30/2003                                                     Security Program
     and                                                       Planning &
                                               2
AUD-2008-2/ FA-09-0034-2                                       Management
Limited Disclosure Report on
Internal Control - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007

2003-10/23177-2                                                Control weaknesses      PBGC needs to ensure that its
Review of PBGC’s Premium                                       undermine the           automated system produces
Accounting System                                              quality and integrity   accurate and verifiable
                                               3
10/10/2003                                                     of reported             premium accounting data.
                                                               premium revenues.

2008-1/FA-0034-1                                               Significant             PBGC needs to mitigate the
Audit of the Pension Benefit                                   Deficiency:             systemic issues related to
Guaranty Corporation’s Fiscal Years                            Access Controls         information access controls.
2007 - 2006 Financial Statements
11/15/2007
      and
                                               11
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on
Internal Control - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007



                    40      PBGC Office of inspector general
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                                        Number of
Report Number, Report Title and                                Significant Problems Summary of Significant
                                        Significant
Date Issued                                                    and Deficiencies     Recommendations
                                        Recommendations
AUD-2009-01/FA-08-49-1                                         Significant             PBGC needs to complete the
Audit of the Pension Benefit                                   Deficiency:             design, implementation and
Guaranty Corporation’s Fiscal Years                            Entity-Wide             testing of security controls,
2008 and 2007 Financial Statements                             Information Security    implement an effective
11/13/2008                                                     Program & Planning      certification and review
    and                                           5            Management              process, and correct identified
AUD-2009-02/FA-08-49-2                                                                 access control vulnerabilities.
Limited Disclosure Report on
Internal Controls – PBGC’s FY 2008
and 2007 Financial Statements
11/13/2009


AUD-2010-09/IT-09-67                                           System control          PBGC needs to strengthen
PBGC Needs to Improve Controls to                              weaknesses placed       security controls and
Better Protect Participant                                     PII of approximately    complete a certification and
Personally Identifiable Information               5            1 million               accreditation review of the
(PII)                                                          participants at risk.   system housing the PII.
09/16/2010


AUD-2010-08/IT-09-67                                           Information             PBGC should seek OMB
Authorization to Operate PBGC                     4            technology              waiver allowing conditional
Information Systems                                            general support         authorization, based on
08/18/2010                                                     systems and             ongoing efforts to improve
                                                               major applications      information security.
                                                               without ATOs
                                                               required by OMB.



This chart complies with Section 5(a)(1), (2) and (3) of the Inspector General Act of 1978, as amended.




                                                 Semiannual Report Of The Inspector General—March 2011            41
        THIS PAGE INTENTIONALLY LEFT BLANK




42
     PBGC Office of inspector general
     Office of Inspector General

Pension Benefit Guaranty Corporation



        5-Year Strategic Plan

     Calendar Years 2011-2016
                            Pension Benefit Guaranty Corporation
                                                          Office of Inspector General
                                             1200 K Street, NW, Washington, DC 20005-4026


									                                                                     	
                                                                                    March 2011


I am pleased to provide this strategic plan issued by the Pension Benefit Guaranty Corporation
(PBGC) Office of Inspector General (OIG) for calendar years 2011 through 2015. In developing
this strategic plan, OIG established specific goals and performance measures consistent
with the spirit of the Government Performance and Results Act. PBGC OIG continues to
respond to the numerous and varied issues of concern that confront the American pension
system and its participants, including information technology security, investment valuation
and management, and benefit payment calculations and administration. We also have
initiated a program of fraud awareness and outreach for our stakeholders and participants
and conducted targeted work in response to myriad Congressional requests and Hotline
complaints.


In drafting this current plan our goal is to continue to help PBGC address the many challenges
that will arise over the next five years. We know that PBGC faces a number of challenges,
ranging from planning for the anticipated surge in pension plans terminations to responding
to new legislation. In addition, OIG will continue working to deploy our own resources as
effectively as possible.


This strategic plan was developed by a seasoned team with audit, investigative, and legal
expertise that examined our goals and results from prior years. OIG senior leadership
provided comments and input and the draft was shared with all OIG staff as well as such OIG
stakeholders as PBGC officials, PBGC Board Representatives, and Congressional staff.


As Inspector General, I want to thank our dedicated OIG staff for embracing this strategic
planning process. In particular, I want to personally thank Curtis Flood, Aaron Jordan, Joe
Marchowsky and Jarvis Rodgers for their assistance.


I look forward to continuing to work with you over the next few years to implement this plan.



Rebecca Anne Batts
                                   Performance Goals
Goal 1: Focus efforts on areas of highest impact on PBGC performance.
Goal 2: Make recommendations that have impact.
Goal 3: Perform timely, relevant, and high quality audits and investigations.

Strategies

Strengthen PBGC’s ability to implement its missions:
•	     Pay benefits on time and accurately
•	     Protect PBGC financial integrity by collecting premiums and other sponsor obligations
•	     Be accountable to beneficiaries, plans, Congress, and the public.

Reduce program vulnerabilities and strengthen program integrity of PBGC’s stewardship of PBGC
resources.
Increase the efficiency and effectiveness with which PBGC provides service to its stakeholders.
Support PBGC in implementing its management improvement initiatives.

Tactics
Continuously monitor and assess risks in PBGC operations and programs to identify those risks
critical to the achievement of our goals.
Target resources to address those critical risks.

Performance Measures
Percentage of OIG direct resources dedicated to critical risk or high-impact activities.1
Percentage of audits and evaluations where findings and recommendations are presented to auditee
within established timeframes.
Percentage of audit recommendations in which management decision is reached within 6 months of
report issuance.
Percentage of investigative complaints timely converted to investigations or closed.


1	       Critical risks are matters of such significance that failure to identify and address vulnerabilities
in an immediate and effective manner will have an adverse effect on integrity or resource manage-
ment. Examples of critical risks include fraud that meets prosecutorial guidelines; criminal activ-
ity related to PBGC and its programs; statutorily mandated work; or audit work that involves major
weaknesses that could impact PBGC strategic goals or support OIG strategic goals.

High impact activities address matters of such significance related to PBGC assets, resources and
costs; congressional or public interest; or program vulnerability that addressing, assessing and ensur-
ing the effectiveness of control systems is instrumental in avoiding an adverse impact on PBGC or its
beneficiaries.  Examples of high impact activities include audits that affirm the integrity of a process
or determine that controls are adequate and provide a basis for communication of this conclusion to
reduce public or high level (e.g., Congressional, PBGC leadership, or Board) concern; investigative
results used to exonerate suspects; criminal investigations resulting in indictment, prosecution, and
conviction; and OIG audit recommendations relating to critical risks and resulting in positive man-
agement decision and action to implement recommended changes.
                                   Stakeholder Goal
Goal: Improve stakeholder awareness and understanding of OIG and its unique role.


Strategy

Effectively communicate the outcome of our work to Congress, agency management officials, the
press, and members of the public.


Expand OIG’s capacity to generate, disseminate, and oversee efforts to garner stakeholder input at all
stages, as appropriate.


Optimize OIG’s policies on communicating with stakeholders.

Tactics
Use the OIG website as a platform to inform audiences of OIG’s mission to promote excellence in
PBGC operations though the conduct of audits and investigations.

Inform stakeholders about the contents of OIG planning documents.

Seek opportunities for OIG professional staff to speak about OIG’s ongoing work and
accomplishments.

Establish OIG as a source of information about PBGC issues by increasing the frequency and variety
of communications with stakeholders.

Performance Measures
Assessment of stakeholder and customer feedback solicited through interviews, surveys, and other
consultations.

Feedback from visitor sessions to the OIG website.

Number of audits or other reports downloaded from the OIG website.

Number of stakeholder outreach engagements and meetings.

Number of hotline complaints and other referrals received.
                                     Workforce Goal
Goal: Hire, cultivate and retain a highly skilled, and fully-empowered workforce.


Strategy

Strive for a highly qualified diverse workforce with the tools and training necessary to continuously
enhance OIG’s ability to fulfill its mission.

Tactics
Recruit, hire, train, develop, motivate, mentor, and effectively manage a diverse front-line,
supervisory, and executive workforce with the technical and workplace skills necessary to facilitate
succession planning and meet OIG’s strategic goals and annual plans.

Enhance internal OIG communication so that all staff understand OIG’s priorities and how their
work helps to fulfill OIG’s mission.

Use our performance planning and appraisal processes to ensure that all OIG staff are aware of how
their work ties to the OIG’s Strategic and Annual Plans, and that they are held accountable for how
their work impacts the organization’s results and how they personally support the OIG’s mission,
vision, core values, goals, and performance targets.

Provide timely and reliable supervisory and managerial feedback to support the effective functioning
of all OIG components.

Support the integrity of OIG operations by maintaining an effective quality assurance program.

Performance Measures
OIG performance against goals set in annual plans.

Clean opinions on audit and investigative peer reviews.
                   Implementation of the Strategic Plan

This Strategic Plan is the first step in an ongoing strategic and tactical planning process.  Within
PBGC OIG, we will ensure individual and Assistant Inspector General (AIG) level accountability for
achieving our strategic goals by the following:

             OIG will publish an Annual Performance Plan that sets specific targets for each of our                
             performance measures for the coming fiscal year; lays out the audit, investigative, and
             managerial priorities for the year; and, where appropriate, discusses the specific projects that
             will be performed and expected initiation dates.

            OIG will report on its progress against the Strategic and Annual Performance Plans in the
            Semiannual Report to Congress for the applicable fiscal year.  The report will cover
            our progress against the measures, priorities, and project initiation dates listed in the Annual
            Performance Plan for the corresponding year.

            OIG will also link employee standards and ratings to the Strategic Plan.  While OIG has           
            already begun the process of integrating these concepts into the performance standards of
            our staff, we expect to link the performance standards of every employee within the OIG to
            the OIG Strategic Plan.


       By linking the Strategic Plan to annual performance plans and reports, OIG will be able to
       maintain focus on the goals of the Strategic Plan while allowing enough flexibility to adapt to
       ever-changing circumstances, such as unexpected new priorities that could arise from a major
       influx of pension plans; the revised expectations of stakeholders (such the increased
       Congressional interest in OIG review of controversial pension plan determinations); or
       shifting PBGC priorities.
  Organizational Chart and Functional Responsibilities
                   as of March 2011




Audit

The Office of Audit examines the economy and efficiency of PBGC programs and operations,
including program results, compliance with applicable laws and regulations, and the accuracy
of financial reports.  While most audit work is done by in-house staff, Audit also contracts with
independent public accountants for some work. OIG audits are conducted in accordance with
Government Auditing Standards published by the U.S. Government Accountability Office.

Investigations

The Office of Investigations utilizes specific law enforcement authorities, tools, and techniques to
conduct criminal, civil and administrative investigations and prevent fraud, waste, and abuse in the
program and operations of PBGC. Investigative work is intended to result in appropriate actions
to resolve allegations and to prevent and deter future instances of illegal or fraudulent acts or
misconduct.

Legal Counsel

OIG’s legal counsel provides legal advice and representation on issues arising during the course of
audit and investigative activities or internal administrative and management issues. Counsel also
manages OIG’s congressional and media relations and reviews proposed legislation, regulations, and
procedures.
The PBGC OIG Mission

Promote excellence in PBGC’s operations through the conduct of investigations, audits, and
evaluations designed to promote economy, efficiency, and effectiveness and prevent and detect fraud,
waste, and abuse.


The PBGC OIG Vision
To be a highly effective organization that promotes positive change by identifying opportunities for
improvements in the performance and efficiency of PBGC’s programs and operations.



The PBGC OIG’s Core Values - Excellence, Integrity, and Respect

We demonstrate excellence when our work meets the highest standards of independence and quality.
Excellent work produces results. Further, an excellent organization is innovative and takes the
initiative to address the most important issues


We demonstrate integrity by modeling ethical behavior and by working to meet and to exceed the
standards of the professions to which our team members have been called.


We demonstrate respect for those we audit and investigate by ensuring that our work fairly and
accurately communicates the results of our efforts. OIG’s leadership demonstrates respect for our
employees by fostering a culture that honors the dignity of all and OIG’s work teams demonstrate
respect by choosing to work together productively and collaboratively.
THIS PAGE INTENTIONALLY LEFT BLANK
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
